audit report



Return to the USDOJ/OIG Home Page



Office of Justice Programs Fiscal Year 1996 Rural Domestic Violence and Child Victimization Enforcement Grant to Women Helping Battered Women
GR-70-99-002
January 29, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant number 96-WR-NX-0004, awarded by the U.S. Department of Justice (DOJ) Office of Justice Programs (OJP) to Women Helping Battered Women (the grantee).  The grantee received grants totaling $396,279  to increase services to combat against and to provide support for the victims of domestic violence.  The grant project period is from October 1, 1996 through January 31, 2000.  As of September 30, 1998, the grantee had expended $171,304 in grant funds.

 Our audit concentrated on, but was not limited to, the period October 1, 1996 through September 30, 1998.  We tested the accuracy and reliability of the grantee's accounting system, reviewed the general ledger, and determined if costs charged to the grant were allowable, allocable, and reasonable.  

For the purposes of this review, we used the Office of Management and Budget (OMB) Circular A-110, Grants and Agreements with Institutions of Higher Education and Other Nonprofit Institutions; OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations; and the OJP Financial Guide for the administration of grants.

	Based on our audit, we found that the grantee properly managed the grant.

Generally, costs charged to the grant were allowable, allocable, and reasonable.

	The grant objectives outlined in the application were being achieved.

	Monitoring reports were submitted as required by the grant.

However, we did identify deficiencies that are described in the Findings and Recommendations section of this report.  Our Scope and Methodology section appears in Appendix II.